BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-773
NAZIR KHAN, IFTIKHAR KHAN,

Petitioners,
V.

MERIT MEDICAL SYSTEMS INC. ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Reply Brief for Petitioners contains
2,999 words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on April 13, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
: Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

JOHN D. GALLAGHER
Notary Public, State of Ohio

My Commission Expires
~ebruary 14, 2023

